            PBGC
            Protecting America's Pensions



Pension Benefit Guaranty Corporation
     Office of Inspector General
       Memorandum Report




     Lessons Learned from FY 2004
       Financial Statement Audit




           March 7,2005
                                            2005-12/23193
                                Pension Benefit Guaranty Corporation
       hQh                                                    Office of Inspector General
PBGC
Protecting America's Pensions
                                                1200 K Street, N.W., Washington, D.C. 20005-4026

                                                                                    March 07,2005

                                                MEMORANDUM


 TO:                       Bradley Belt
                           Executive Director

                           Luther L. ~ t k i n s h , 4
                            ssistant Inspector General for Audits
 ,,OM:+
 SUBJECT:                  Lessons Learned from FY 2004 Financial Statement Audit


 Introduction

 In 2004, Federal agencies were required to issue audited financial statements by
 November 15 for the first time. Despite many obstacles, PBGC achieved a major
 milestone by meeting the government-wide accelerated reporting deadline and achieving
 an unqualified opinion for the 1 2 ' ~consecutive year. This was made possible by a real
 team effort of the Board Representatives, PBGC management and staff,
 PricewaterhouseCoopers, and the OIG. Much of our success was due to the Herculean
 efforts of this team. However, we all recognize that improved systems and processes are
 needed to make financial reporting a routine event each year.

 To build on this year's success, OIG hosted a series of lessons learned sessions with key
 players in the financial reporting process. These sessions included Department Directors
 that participated in the financial reporting process and PricewaterhouseCoopers. In
 addition, these sessions provided a forum to discuss reportable conditions identified
 during the audit and corrective action plans. Our hope is to capitalize on the things we
 did well and improve in the areas where we can be more effective. This report
 summarizes lessons learned regarding the preparation and audit of PBGC's 2004
 Financial Statement Audit.

Results in Brief

 All of the participants in the sessions agree that PBGC has made significant progress in
 correcting internal control weaknesses this year. Two conditions reported last year were
 corrected----a material weakness in estimating the value of liabilities for multiemployer
 plans and a reportable condition for estimating single-employer reserves. While we are
 all encouraged at the progress, we all understand that further improvement is needed. The
 Corporation still has five reportable conditions that were reported in previous years.
We analyzed the input from the key players in the financial reporting process to identify
things we did well and opportunities to improve. We identified several recurring themes
during our sessions:

    1. Management needs to continue its strong commitment to and support of the
       financial reporting process.
    2. Communications during planning, execution and follow-up improved this year,
       but there are opportunities to improve communications.
    3. Most of the recommendations for reportable conditions and management letter
       issues relate to documentation of processes and procedures.
    4. 4010 data is needed sooner and more often.

While all of these lessons are important, auditors believe there are two challenges that
need to be addressed strategically to have the November 15 deadline become a routine
business practice (rather than an extraordinary task):

       Close the financial records, including conducting the processes that support the
       financial statements, more often during the year to reduce the pressure on
       management and auditors at year-end, and
       Improve financial controls by integrating financial systems.

By addressing both of these challenges, management will not only streamline financial
reporting but will improve its financial and performance management with more timely
and accurate information.

Based on the discussions at the sessions we hosted, one thing is crystal clear---the lessons
learned sessions were valuable because they encouraged a constructive dialogue between
all of the players. We plan to continue this practice after the audited financial statements
are issued in 2005.

1. Mananement Commitment. The most important ingredient to successfbl financial
reporting is a strong commitment from top-level management to support reporting and
implement strong controls. Throughout the year, the Executive Director, Chief Financial
Officer, and Chief Operating Officer took a keen interest in the financial audit and
meeting the accelerated reporting deadline. The executives' unwavering support to meet
the mandated November 15 reporting deadline signaled the priority that management was
expected to give this important task. In staff meetings and periodic coordination meetings
with the audit staff, the executives publicly emphasized the importance of correcting
reportable conditions.

Likewise, the OIG and PwC made a strong commitment to completing the financial audit
on time. From the beginning, auditors placed a high priority on identifying issues that
would be barriers to completing the audit. When issues were identified, they were
promptly resolved through meetings and, if necessary, elevated to successively higher
levels. This was a major factor in meeting the accelerated reporting requirements in
2004.
2. Communications. Communications during planning, execution and follow-up
improved this year, but there are opportunities to improve communications among the key
participants.

Planning Meetings. During the planning stage, it is important for all stakeholders who
are involved in preparing and auditing the financial statements to develop a common
understanding of the process, obstacles and expectations. The entrance conference,
sponsored by the OIG and the public accounting firm conducting the audit, is fundamental
to this process. In the past, entrance conference participants developed a common
understanding of the timeline, critical dates, areas to be tested, overall audit approach and
methodology as well as a discussion of any new accounting standards effective for the
current fiscal year. The meeting also clarified expectations and process for participation
of the Board Representatives. During the entrance conference, the participants agreed to
periodic meetings with the auditors.

Best Practice: It is critical for PBGC Executives (Executive Director, Deputy Executive
Director, Chief Financial Officer, Chief Operating Officer, Chief Management Officer,
and Chief Technology Officer), and actuarial and financial staff to attend the entrance
conference. During our sessions, there was general consensus that attendance at this
meeting should be expanded to include key personnel in operations outside the CFO area.
In the past, some key personnel were not invited or did not attend the entrance conference.
By broadening attendance, problems encountered later in the process could have been
avoided. This would facilitate better communication to key personnel on when testing
will be scheduled, the impact on their operations, and schedule conflicts.

Internal Control Reviews. Another opportunity to improve communication during the
planning stage is to better coordinate management's internal control efforts with auditors.
Last year, PBGC undertook an initiative under the direction of the CFO to identifl,
document, test and report on key internal controls that is one of the first of its kind in the
federal government. Auditors fully support these efforts because they demonstrate
PBGCYscommitment to strengthening internal controls and improving management
oversight. At our sessions, auditors pointed out the value of the internal controls work by
improving communications during the planning stages.

Best Practice: The auditors indicated that they could rely more on this work if:

       Internal control work followed requirements in the Financial Audit Manual
       published by GAO.

       Internal control work was completed by June.

       Key controls were tested on an interim basis and documentation retained.
       Controls were linked to general ledger accounts, significant transactions, and
       locations.
Execution. The auditors and PBGC staff have the majority of their communications
during the testing and financial statement preparation phases . These communications are
about operating processes, documentation, and are often data-driven. It is critical during
the execution phase that these communications are timely, open, and frequent, and that all
necessary offices are involved.

Best Practices. Participants in the lessons learned sessions identified a number of best
practices that occurred during the execution phase of the audit that could improve our
process this year. These include:

       Resolve issues earlier by auditors giving audit results to managers as soon as work
       is completed to facilitate a constructive dialogue.
       All affected parties, or designated alternates, attend weekly and monthly meetings.

       Provide the Management Discussion and Analysis (MD&A) and financial
       statements to the Executive Director and the Board Representatives for review
       earlier in the process.

       Strengthen the second and third quarter closes by having them mirror as closely as
       possible the year-end close.

       Identify items on the financial statements that can be completed on a quarterly
       basis and test them.
       Check progress against agreed upon milestones at monthly and weekly meetings.

       Explore opportunities to adjust the universe of companies classified as Probable
       and Reasonably Possible and their underfunding more often than once-a-year at
       year end.

       Prepare the drafts of the Legal Representation letter and Management
       Representation letter earlier.
       Apprise Board Representatives during 4thquarter of the status of financial
       statements and any significant changes.
       Auditors should request new directives both prior to audit and at the beginning of
       the 4thquarter

       Conduct substantive testing of the 3rdquarter.

       Minimize year end testing.
Follow-up Meetings. We also have an opportunity to improve communications after the
financial audit is completed and while the Management Letter is being drafted. Most of
the participants in our sessions expressed that the meetings PricewaterhouseCoopers and
OIG held with each department following the issuance of the financial statement and the
lessons learned meetings were beneficial and improved the relationships between the
auditors and management. These meetings provided the opportunity for staff to better
understand audit issues by discussing them with auditors. Auditors benefited from the
meetings because they could assist managers in preparing corrective action plans and
obtain feedback to improve the audit process.
Best Practice: The OIG will continue to sponsor lessons learned meetings and individual
departments at the conclusion of future financial statement audits.

3. Better Documentation o f Processes and Procedures Most of the recommendations
for reportable conditions and management letter issues relate to documentation of
processes and procedures. This has been a recurring theme of management letter reports
over the years. For example:

       16 of the 21 recommendations that address PBGC's reportable conditions are
       related to better documentation of processes, procedures, and decisions. (See
       Appendix B).
       Over 50% of the recommendations in the upcoming management letter are
       requesting better documentation.

Given the recent PBGC organizational changes, documenting processes, procedures, and
decisions will be even more important. While some of our reportable conditions, like
financial systems integration, will be a major challenge for PBGC, adopting best practices
related to documentation will help correct most deficiencies currently being reported and
help reduce the potential for occurrence in the future.

4. Earlv Access to 401 0 Data. One additional issue identified in the lessons learned
session was to explore the possibility of PBGC getting access to the 4010 information
sooner and more often. This was also an observation that the GAO representatives made
in their recent study of the pension funding rules. While it is recognized that this may
require some coordination with other agencies or possibly even legislative change, this
opportunity should be explored. More access to this information can provide PBGC with
several benefits, e.g. the identification of potential probables.


Two Key Goals for Improvin~PBGC Financial Statement Reporting

There are two overarching challenges that, when addressed, the auditors believe will
significantly improve PBGC's financial management and thereby the financial statement
preparation - a quarterly financial close and integrated financial systems.
Quarterly Financial Close

Many private sector firms and some other government agencies close their financial books
each quarter. PBGC should consider closing its financial records more frequently than once
or twice a year. The CFO depends on many other departments within PBGC to perform
supporting tasks, such as identifying plans that are Probable and Reasonably Possible of
termination and estimating reserves for those plans, that are only done once a year. This is
one of the major reasons why it is such an effort to complete the annual audit in a timely
manner. All areas within PBGC that support the financial statements need to understand
their critical role and be committed to make more frequent financial closings possible.

All of the participants recognize that accomplishing hard closes each quarter presents
numerous challenges that will be difficult to overcome in the short run. However,
establishing a long-term goal for quarterly closes that mirror the year-end process makes
sense. Quarterly reporting of financial results provides better transparency and allows
management and auditors to:

       Continuously check internal controls;
       Catch errors throughout the year; and
       Document processes and decisions as they occur.

The primary driver for complete financial closes each quarter, however, should be
transparency. Quarterly financial reporting allows PBGC to manage its operations better
based on reliable financial and performance data. This will provide timely and valuable
decision-making information to all PBGC managers, not just those in the Financial
Operations Department, and supports PBGC's desire to identi@ risk and reduce it to an
acceptable level.

We are encouraged by the Executive Director's and the Chief Financial Officer's continued
efforts to expand quarterly reporting. Benchmarking with other agencies within the
government could help with this endeavor, along with establishing a goal for quarterly
closings that include all processes used for the year-end close.

Financial Management Systems Integration

Implementing financial systems integration will significantly improve PBGC's performance
in preparing its annual financial statements. This issue is a long-standing reportable
condition. While it is recognized as one of the most challenging improvements for PBGC, it
is also the one that offers the most promise for improving financial reporting. When
implemented it should reduce the dependency on, and better control, manual inputs. This
reduces the potential for errors and increases the accuracy of timely information to support
all of PBGC's financial management needs, not just financial statement preparation.
                                                                            APPENDIX B


REC.#    RECOMMENDATION                                       WHAT WAS FOUND
CTO-5    Assign specific resources to 1) update the           OIT has not developed or
         general security plan and associated security        documented criteria,
         policies to reflect the current operating            guidance to conduct risk
         environment, and 2) complete the                     assessments, certifications,
         implementation of a fully functional and             and accreditations.
         integrated enterprise-wide information
         security program, with priority given to
         implementation and monitoring of technical
         security standards.
FOD-33 1 Develop and implement a systematic                   PBGC has written
         methodology for validating and correcting            procedures for clearing
         data stored within PAS prior to the                  items from suspense, but
         implementation of a new premium system.              there are no written policies
                                                              or procedures defining
FOD-333    Develop and implement policies and                 monitoring controls to
           procedures requiring all suspended                 ensure that old items are
           transactions to be researched and resolved in a    cleared timely.
           timely manner and ensuring that adjustments
           are appropriately reviewed and approved.           PBGC does not have or
                                                              maintain a complete list of
FOD-334    Implement controls to reconcile Form 1             plans that are required to
           information received by PBGC to Form 550           file a Form 1 with PBGC.
           information received by the DOL as a means
           of identifying plans that have not filed or paid   All of the pertinent policies
           their associated premiums                          and procedures related to
                                                              the premium accounting
FOD-335    Compile a comprehensive policies and               cycle have not been
           procedures manual for processing and               documented, communicated
           accounting for premium revenue.                    or implemented throughout
                                                              the Corporation.
CFND-9     Develop and implement internal controls to         Documentation utilized by
           ensure the accuracy of the unfunded benefit        PBGC to support liability
           liability calculations. The procedures             :alculations was not
           implemented should ensure that                     zonsistently maintained in
           documentation supporting the liability             xcordance with OMB
           calculations is clear and readily available, and   Circular A- 123 (to be clear
           contain evidence of an independent or              md readily available for
           supervisory review.                                review).

CFND- 10 Consistently implement and enforce internal          Voted plans inappropriately
         controls to ensure the completeness of the           :xcluded from the
         contingency listing.                                 :ontingency list and plans
                                                              inappropriately included.
CFND- 12 Consistently implement procedures and             Documentation to support
         guidance for documenting the decisions and        the liability calculations
         judgments made to support plan                    contained no evidence of
         classifications. Documentation should be          independent or supervisory
         completed in a timely manner, appropriately       review.
         dated, include relevant facts and .......

CFND- 12 Consistently implement procedures to ensure       Memos that document
         that classification memos are appropriately       PBGC's classification of a
         reviewed and approved.                            plan as probable or "high
                                                           risk" reasonably possible,
CFND- 13 Enhance and consistently implement guidance       did not include all relevant
         to fully support subsequent event                 considerations used by
         determinations.. ...PBGC should implement         PBGC to make
         policies and procedures to fully document         classification decisions and
         each subsequent event, which includes the         were inconsistently
         relevant facts and final judgments made by        prepared.
         PBGC.
                                                           Noted instances when the
                                                           "high risk" memos were not
                                                           approved by the CFND
                                                           Deputy Director, as required
                                                           by policy guidance.
          Enforce procedures requiring documentation       PBGC's procedures require
          of the reasons for additions and deletions.      the preparer of the
                                                           reconciliation to document
          Amend existing documentation to require the      the reasons for deleting
          preparer to date and sign the reconciliations.   plans from the universe.
          Further, update the procedures to specify the    However, formal
          completion of an independent review of this      documentation of this
          reconciliation.                                  process, including the
                                                           reasons for plan additions or
                                                           deletions, was not
                                                           documented. This
                                                           reconciliation was not
                                                           independently reviewed or
                                                           validated for accuracy or
                                                           completeness.
          Develop and implement procedures to ensure       Plan level information was
          that the MES and other data used by PBGC to      not accurately transferred
          classify plans includes all information          form DOL and therefore not
          available to PBGC.                               utilized by PBGC. The
                                                           information and the analysis
          Develop and implement procedures to              was had not been subject to
          complete supervisor reviews of information       supervisory review. If the
          and analysis performed during the initial        MES had been
          screen of plan classifications.                  appropriately updated with
                                                     the data available to PBGC
                                                     for review, neither would
                                                     have been included on the
                                                     contingency list.
Document and implement a clear and                   The totality of criteria used
consistent policy regarding the definitions and      to make the classification
classification criteria utilized to classify plans   decisions by the MWG has
as probable, reasonably possible or remote ...       not been fully documented.
                                                     PBGC was unable to
Develop, and implement guidance to enhance           provide the documentation
the documentation regarding decisions and            necessary to support the
judgments made to support plan                       classification.
classifications. The documentation should be
completed.consistent fashion ...allow a third
party to objectively assess..financial ratios or
other financial data used..clearly and
consistently documented.
